                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              JOB CORPS MUST STRENGTHEN CONTROLS TO
                                              ENSURE LOW-INCOME ELIGIBILITY OF
                                              APPLICANTS




                                                                 Date Issued:   September 30, 2011
                                                              Report Number:      26-11-005-03-370
U.S. Department of Labor                               September 2011
Office of Inspector General
Office of Audit
                                                       JOB CORPS MUST STRENGTHEN CONTROLS
                                                       TO ENSURE LOW-INCOME ELIGIBILITY OF

BRIEFLY…                                               APPLICANTS

Highlights of Report Number 26-11-005-03-370,          WHAT OIG FOUND
issued to the Assistant Secretary for Employment       Job Corps policy allowing potential students to
and Training Administration.                           self-certify their family income levels was not
                                                       effective. We estimated that 472 (10 percent) of the
                                                       4,718 active students enrolled in the program
WHY READ THE REPORT                                    during March 2011 were ineligible; and that $13.8
The Office of Inspector General (OIG) determined       million would be spent over time to train them.
that Job Corps did not ensure contracted Outreach      Assuming the ineligibility rate remained constant,
and Admissions (OA) service providers enrolled         then funds spent on ineligible students over a
only eligible students because of systemic control     1-year period could total $164.6 million.
weaknesses at both the contractor and Job Corps
levels. As a result, ineligible students took          Further testing showed that even when potential
enrollment slots intended for at-risk and              students self-certified income above the
low-income youth.                                      established thresholds, OA service providers still
                                                       allowed ineligible students to enroll. We estimated
In the report, we estimate the number of ineligible    that OA service providers did not comply with Job
students enrolled in Job Corps and the potential       Corps enrollment requirements for as many as
costs to train these ineligible students. We also      1,527 (2.7 percent) of the 57,392 students enrolled
discuss specific control weaknesses that allowed       during calendar year 2010, and that as much as
the students to enroll and the changes Job Corps is    $45.4 million in DOL funds could be spent over time
making to strengthen its eligibility determination     to train these students.
process.
                                                       The enrollment of ineligible students occurred
                                                       because of systemic control weaknesses at both
                                                       the contractor and Job Corps levels. For example,
                                                       some OA service providers disregarded or were not
WHY OIG CONDUCTED THE AUDIT
                                                       aware of the appropriate income eligibility
The Employment and Training Administration (ETA)
                                                       thresholds; and Job Corps had not provided
found the intentional admission of ineligible
                                                       adequate procedures, training, and oversight to
students at a Job Corps center operated by a
                                                       ensure compliance.
private contractor. As a result, Secretary Solis
requested the audit to ensure the appropriate use of
                                                       Job Corps has begun making changes to its
Federal taxpayer money and the fair enrollment
                                                       student eligibility determination process, including
opportunity for eligible students into Job Corps.
                                                       modifying its automated system to no longer allow
                                                       input of income amounts exceeding the established
In response to the request, we conducted this audit
                                                       thresholds and requiring all potential students to
to answer the following question:
                                                       provide income documentation.
Did Job Corps ensure outreach and admissions
service providers enrolled only eligible students?     WHAT OIG RECOMMENDED
                                                       The OIG recommended that the Assistant Secretary
                                                       for ETA require Job Corps to determine the
                                                       eligibility of all active students with recorded
                                                       incomes over the established income thresholds
READ THE FULL REPORT                                   and take appropriate action; recover from OA
To view the report, including the scope,               service providers the $2.27 million in program
methodology, and full agency response, go to:          funds spent on ineligible students identified during
http://www.oig.dol.gov/public/reports/oa/2011/26-11-   our testing; and develop procedures and oversight
005-03-370.pdf.                                        to ensure student eligibility. ETA accepted our
                                                       recommendations but disagreed with our
                                                       methodology to estimate the cost to train ineligible
                                                       students.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               Job Corps Must Strengthen Controls
                                     Report No. 26-11-005-03-370
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective — Did Job Corps ensure outreach and admissions service providers

            enrolled only eligible students? ............................................................. 3

         Control weaknesses allowed ineligible students to enroll in Job Corps. ............... 3


         Finding — Job Corps did not ensure OA service providers enrolled only 

                   eligible students. ................................................................................. 3


Recommendations ...................................................................................................... 12


Exhibits
         Exhibit 1 Projected and estimated training costs for CY 2011 ineligible 

                   enrolled students .................................................................................. 15

         Exhibit 2 Projected trainings costs for CY 2010 ineligible enrolled students....... 17

         Exhibit 3 March 2011 Income Verification Exceptions ........................................ 19


Appendices
         Appendix A Background ..................................................................................... 23

         Appendix B Objective, Scope, Methodology and Criteria ................................... 25

         Appendix C Acronyms and Abbreviations .......................................................... 31

         Appendix D ETA’s Response to Draft Report ..................................................... 33

         Appendix E Acknowledgements ......................................................................... 37





                                                                                    Job Corps Must Strengthen Controls
                                                                                          Report No. 26-11-005-03-370
                 U.S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK 





                                   Job Corps Must Strengthen Controls
                                         Report No. 26-11-005-03-370
                                                     U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                           Office of Inspector General
                                                   Washington, D.C. 20210




September 30, 2011

                              Assistant Inspector General’s Report



Jane Oates
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

Secretary Solis requested a nationwide audit of Job Corps’ outreach and admissions (OA)
process after the Department of Labor’s (DOL) Employment and Training Administration
(ETA) found the intentional admission of ineligible students at a Job Corps center operated
by a private contractor. The Secretary requested the audit to ensure the appropriate use of
Federal taxpayer money and the fair enrollment opportunity for eligible students into Job
Corps, as well as to improve ETA’s policies and procedures to prevent the enrollment of
ineligible students.

In February 2011, ETA provided us with the results of two reviews it conducted of
student eligibility. For the first review, ETA reported that nationally 2.9 percent (5,426) of
the 180,904 students enrolled between calendar years (CY) 2008 and 2010 were
income ineligible, and that the ineligibility rate improved to 2.3 percent in CY 2010. 1 For
the second review, ETA further analyzed active student enrollments and reported that
follow up with centers and OA contractors determined nearly all entries for ineligible
incomes were typographical errors, suggesting that OA contractors should improve
quality control procedures for data entry.

Our audit objective was to answer the following question:

      Did Job Corps ensure outreach and admissions service providers enroll only eligible
      students?

Our scope encompassed the 86 contractors that provided OA services to the 57,392
students who enrolled at Job Corps centers in CY 2010, as well as the 5,504 students
who enrolled in March 2011.


1
 The family income thresholds are based on Poverty Guideline Limits established by the Department of Health and
Human Services (HHS) and 70% of the Lower Living Standard Income Levels (LLSIL) established by the Department
of Labor. Job Corps eligibility thresholds are set at the higher of the Poverty Guideline Limits and the LLSIL.

                                                                            Job Corps Must Strengthen Controls
                                                       1                          Report No. 26-11-005-03-370
                                                      U.S. Department of Labor – Office of Inspector General



We used both statistical and judgmental sampling to assess the level of ineligible
students that enrolled in Job Corps and the causes for improper enrollments. We used
enrollment and cost information provided by Job Corps to calculate questioned costs
and funds put to better use. See Appendix B for a detailed description of our audit
scope and methodology.

RESULTS IN BRIEF

Job Corps did not ensure OA service providers enrolled only eligible students because of
significant and systemic control weaknesses at both the contractor and Job Corps levels.
Job Corps policy allowed potential students to self-certify their family income levels and
neither the OA contractors nor Job Corps had sufficient procedures in place to ensure
eligibility. As a result, ineligible students took enrollment slots intended for at-risk and
low-income youth. Based on our statistical sample of the 4,718 active students enrolled in
March 2011, we estimated that 472 (10 percent) ineligible students enrolled in the program
during the month, and that $13.8 million in DOL funds could be spent to train them,
assuming students remained in the program for the 9.1 months average length of stay. Job
Corps will enroll nearly 56,000 students in CY 2011. If recent and planned changes to Job
Corps’ student enrollment process are not effectively implemented, we expect that ineligible
students would continue to be enrolled throughout the year. Assuming the ineligibility rate
remained constant, then funds spent on ineligible students could total $164.6 million. 2

Further testing showed that even when potential students self-certified income above the
established thresholds or did not meet other eligibility criteria, OA service providers did not
consistently comply with Job Corps policy and still allowed ineligible students to enroll.
Based on our statistical sample of records for students enrolled during CY 2010, we
estimated that OA service providers did not comply with Job Corps’ OA eligibility
requirements for 614 (1.1 percent) to as many as 1,527 (2.7 percent) of the 57,392
students enrolled during the year. We further estimated that $18.2 million to as much as
$45.4 million in DOL funds were spent to train these students. 3

The results of ETA’s 2011 review indicated that 2.3 percent of the students enrolled during
CY 2010 were income ineligible. This ineligibility rate fell within our estimated range of 1.1
percent to 2.7 percent. Our follow-up testing of source documents obtained by OA service
providers at enrollment showed that the students’ self-certified incomes were consistent
with the income levels recorded in Job Corps’s automated system for 125 (90.6 percent) of
the 138 student files we judgmentally selected for testing; and that the 125 students were in
fact ineligible. The ineligible enrollments occurred because some OA service providers
disregarded or were not aware of the appropriate income eligibility thresholds; and Job
Corps had not provided adequate procedures, training, and oversight to ensure
compliance.



2
  Our estimates are based on the assumption that students remained in the program for the 9.1 months average 

length of stay reported by Job Corps. See Exhibit 1 for our detailed cost calculations. 

3
  See Exhibit 2 for our detailed cost calculations.


                                                                          Job Corps Must Strengthen Controls
                                                        2                       Report No. 26-11-005-03-370
                                             U.S. Department of Labor – Office of Inspector General



Job Corps has begun making changes to its student enrollment process. For example, in
April 2011 Job Corps modified its Outreach and Admissions Student Information System
(OASIS) to include an enhanced low-income eligibility verification process that validates
income-related data against current poverty and low-income guidelines. With these
changes, the system will not allow the enrollment of an applicant who does not meet the
low-income definition as stated in the Policy and Requirements Handbook (PRH), including
being homeless, a foster child, or receiving public assistance. Also, in October 2011, Job
Corps plans to implement policy eliminating self-certification of family income and begin
requiring all potential students to provide income documentation.

Our key recommendations to the Assistant Secretary for ETA include requiring Job Corps
to determine the eligibility of all active students with recorded family incomes over the
established income thresholds and take appropriate action; recover from OA service
providers the program funds spent on ineligible students; and develop policies, procedures,
training, and oversight to ensure OA service providers comply with established eligibility
criteria and other Job Corps policy for enrollment in the program.

ETA’s RESPONSE

In its response, ETA accepted our five recommendations and stated it had already
taken action to address three recommendations, and will take action on the remaining
two. Based on ETA’s response, we made slight revisions to our estimate of the cost to
train ineligible students. ETA also disagreed with our inclusion of administrative funding
(e.g., national and regional office oversight) in our estimated cost to train ineligible
students because Job Corps students did not benefit directly. ETA noted that other ETA
training programs do not include administrative funding when calculating participant
costs. Excluding these administrative costs would have reduced our $164.6 million
estimate by $2.8 million. However, we retained the administration costs in our estimate
because the costs incurred support the delivery of services to students and ultimately
benefit each student.

ETA’s response to the draft report is included in its entirety at Appendix D.

RESULTS AND FINDINGS

Objective — Did Job Corps ensure outreach and admissions service providers
            enroll only eligible students?

       Control weaknesses allowed ineligible students to enroll in Job Corps.

Finding — Job Corps did not ensure OA service providers enrolled only eligible
           students.

Job Corps policy allowed potential Job Corps students to self-certify their family income
levels and neither the OA contractors nor Job Corps had procedures in place to ensure
eligibility. As a result, ineligible students took enrollment slots intended for at-risk and low-

                                                               Job Corps Must Strengthen Controls
                                               3                     Report No. 26-11-005-03-370
                                                          U.S. Department of Labor – Office of Inspector General



income youth. Our testing showed that self-certification of income was not an effective
means of determining student income eligibility. We estimated that 472 (10 percent) of the
4,718 4 active students that enrolled in the program during March 2011 were ineligible; and
if the systemic control weaknesses were not corrected the potential funds spent on
ineligible students during a 12-month period could total nearly $164.6 million. 5 Furthermore,
even when potential students self-certified income over the established thresholds or did
not meet other eligibility criteria, OA service providers still allowed ineligible students to
enroll. We estimated that OA service providers did not comply with Job Corps enrollment
requirements for as many as 1,527 (2.7 percent) of the 57,392 students enrolled during CY
2010, and that as much as $45.4 million in DOL funds were spent to train these students. 6
If the recent and planned changes to Job Corps’ student enrollment process are effectively
implemented, then we estimate nearly $164.6 million in funds could be put to better use by
ensuring only eligible students were enrolled.

The enrollment of ineligible students occurred because of significant and systemic
control weaknesses at both the contractor and Job Corps levels; and not due to
typographical errors or other non-income based qualifying criteria. Specifically, some
OA service providers disregarded or were not aware of the appropriate income eligibility
thresholds; and Job Corps had not provided adequate procedures, training, and
oversight to ensure compliance. Job Corps has begun making changes to its student
enrollment process, including modifying its automated system to no longer allow input of
income amounts exceeding the established thresholds and requiring all potential
students to provide income documentation.

Self-Certification Process

Job Corps outreach and admission services are provided by contractors responsible for
ensuring the Job Corps program maintains a pool of eligible and committed applicants
and uses its full training capacity. There were 29 service providers operating under 86
separate OA contracts. 7 The number of contracts managed by a single OA service
provider ranged from 1 to 10 contracts. The service providers employed admissions
counselors who interviewed potential students to ascertain the potential benefit they
could receive from the program, their commitment to program completion, and their
eligibility. Students were required to meet several eligibility criteria, such as age (16-24
years), legal U.S. residency, need for additional education to secure and hold
employment, and low family income. An applicant’s low-income status was determined
to be qualifying by family income below a certain threshold, receipt of public assistance,
being in foster care or a ward of the court, or being homeless. The Workforce
Investment Act (WIA) defined the low-income thresholds for Job Corps eligibility as

4
  For statistical projection purposes, we statistically reduced the student universe from 5,504 to 4,718 to reflect the 

March 2011 enrollments that separated from the program and, as a result, could not be tested. See Methodology at 

Appendix B for further explanation and calculations. 

5
  See Exhibit 1 for cost calculations.

6
  See Exhibit 2 for cost calculations.

7
  Contracts were issued for specific metropolitan regions, portions of states, multi-state territories, as well as for 

specific student gender and on-center/off-center living accommodations. See Background in Appendix A for further 

information on contractor duties.


                                                                                Job Corps Must Strengthen Controls
                                                            4                         Report No. 26-11-005-03-370
                                                        U.S. Department of Labor – Office of Inspector General



income below the higher of the poverty line, as defined by Office of Management and
Budget and updated annually by the Department of Health and Human Services (HHS),
or 70% of Lower Living Standard Income Level (LLSIL) threshold. These thresholds are
based on family size and geographic location.

Under Job Corps policy, potential students self-certified their eligibility status in writing
by signing a Primary Applicant ETA Form 652 (Form 652) prepared by the admission
counselors. Job Corps policy required the admission counselors to obtain
documentation from a potential student to demonstrate eligibility only if information
provided by the student was questionable or the potential student’s social security
number ended in one of five 2-digit sequences. 8 Job Corps’ automated system
identified accepted students as “Sample” or “Non-Sample.” Sample applicants were
required to provide Job Corps documentation to demonstrate income eligibility. Non-
Sample students were not required to submit income documentation. Acceptable
documentation included income tax forms, paycheck stubs, letters from employers,
court documents, proof of public assistance, or a written statement from the student
indicating a situation where they did not have family income (e.g., Statement of Support
indicating living with friends or relatives, homeless).

Ineligible Students Were Allowed to Enroll in Job Corps

Our testing showed that self-certification was not an effective means of determining
eligibility and that OA service providers did not consistently comply with Job Corps
criteria when enrolling students. As a result, ineligible students enrolled at Job Corps in
spaces intended for at-risk and low-income youth.

Self-Certification Was Not Effective

We tested the effectiveness of the income self-certification process used by Job Corps
for students who enrolled in March 2011. 9 We statistically selected 189 of 5,229 “Non
Sample” students who enrolled during the month for testing. We asked these students,
all who previously self-certified their income, to provide the same type of eligibility
documentation Job Corps accepted for “Sample” students. We received 120 responses
that were applicable for testing. Of the 120 students we statistically selected and tested,
108 (90 percent) provided documentation that supported their self-certified eligibility.
Twelve (10 percent) of the 120 students tested did not support their low-income status
as follows:

         •	 Eight students documented their income at amounts greater than what they
            self-certified on the Form 652 and at levels exceeding their respective
            low-income thresholds. The eight students exceeded their thresholds by
            $794; $4,470; $7,000; $10,399; $25,415; $29,023; $34,473; and $65,074.

8
  Social security numbers ending in one of the five 2-digit sequences represented five percent of admissions that 

required documentation to certify reported income on Form 652.

9
  See Appendix B “Sampling Plan for Income Self-Certification Process” for additional information on our testing 

methodology.


                                                                             Job Corps Must Strengthen Controls
                                                          5                        Report No. 26-11-005-03-370
                                                          U.S. Department of Labor – Office of Inspector General



              They also did not provide any documentation indicating they were eligible due
              to non-income based qualifying criteria (e.g., receiving public assistance,
              being a foster child).

         •	 Three students self-certified zero family income and informed us that income
            documentation would not be provided. The students did not provide any
            documentation describing how they survived without income (e.g., Statement
            of Support indicating living with friends or relatives, homeless).

         •	 One student self-certified family income of $4,320; stated they would
            document the income but did not do so despite follow-up assistance by Job
            Corps center personnel. The student also did not provide any documentation
            describing how they survived with limited income.

Based on our statistical sample, we estimated that 472 10 (10 percent) 11 of the 4,718 active
students enrolled during March 2011 were ineligible and that $13.8 million in DOL funds
would be spent to train them, assuming students remained in the program for the
9.1 months average length of stay. Job Corps will enroll nearly 56,000 students in CY 2011.
We expect that ineligible students would continue to be enrolled throughout the year if
recent and planned changes to Job Corps’ student enrollment process are not effectively
implemented. Assuming the 10 percent ineligibility rate and the average length of stay rate
remained constant, then potential funds spent on ineligible students would total
$164.6 million. Since the WIA required income eligibility and the costs to train ineligible
students are substantial, it is critical that all Job Corps students are eligible for the program.
As such, we concluded that allowing students to self-certify family income was not an
effective means of determining student income eligibility.

OA Service Providers Did Not Consistently Comply with Job Corps Policy

Further testing showed that even when potential students self-certified income over the
established thresholds or did not meet other eligibility criteria, OA service providers did not
consistently comply with Job Corps policy and still allowed ineligible students to enroll. We
tested a statistical sample of 196 of the 57,392 student admission files 12 maintained by OA
service providers for CY 2010 to determine compliance with Job Corps eligibility criteria. As
noted, these criteria included age, legal residency, ability to benefit from the Job Corps
program, and low-income status. 13




10
   We are 95 percent confident the range of exceptions was 221 (lower limit) to 723 (upper limit) students.
11
   For statistical projection purposes, we statistically reduced the student universe to 4,718 to reflect the percent of
March 2011 enrollments that separated from the program and, as a result, could not be tested. See Methodology at
Appendix B for further explanation and calculations.
12
   See Appendix B “Sampling Plan for CY 2010 Student Admissions Compliance” for additional information on our
testing methodology.
13
   Earned income criteria include total family income not in excess of the higher of: (a) the Poverty Guideline Limits
established by the Department of Health and Human Services, (b) 70 percent of the Lower Living Standard Income
Level established by DOL.

                                                                                Job Corps Must Strengthen Controls
                                                            6                         Report No. 26-11-005-03-370
                                                       U.S. Department of Labor – Office of Inspector General



We determined that 7 (3.6 percent) of the 196 students tested were not eligible for Job
Corps. Specifically, the self-certified family incomes for six students exceeded the
established thresholds and one student did not meet residency requirements. The six
students exceeding the income eligibility thresholds also did not qualify for Job Corps
based on receipt of public assistance, homeless or foster care status. Four OA service
providers are responsible for the income exceptions. 14 The admission file for the seventh
ineligible student did not document legal entry and residency in the United States and
contained a letter from the Social Security Administration (SSA) stating the name and
social security number provided by Job Corps did not match the name assigned to the
social security number by SSA. The income amounts that exceeded established thresholds
ranged from $2,430 to $24,621, with three students in the $4,000 - $4,999 range.

Based on statistical projection, we estimated with 95 percent confidence that OA service
providers did not comply with Job Corps’ OA eligibility requirements for 614 (1.1 percent) of
the 57,392 students enrolled during the year, and that $18.2 million was spent to train these
students, (assuming they remained in the program for the average length of stay).
Moreover, we are 97.5 percent confident that as many as 1,527 (2.7 percent) students
were ineligible and as much as $45.4 million in DOL funds were spent to train these
students. 15

Significant and Systemic Control Weaknesses Allowed Ineligible Enrollments

ETA reported that nationally the recorded income for 2.9 percent (5,426) of the 180,904
students enrolled during CY 2008 through 2010 exceeded the established family income
thresholds allowed for enrollment, and that 2.3 percent of CY 2010 enrolled students had
records exceeding the established low-income thresholds. The CY 2010 ineligibility rate fell
within our estimated range of 1.1 percent to 2.7 percent. ETA further analyzed active
student enrollments and reported that follow up with centers and OA contractors
determined nearly all entries for ineligible incomes were typographical errors; suggesting
that OA contractors should improve quality control procedures for data entry. ETA
requested we examine this issue.

Our follow-up testing 16 of source documents obtained by OA service providers at
enrollment showed that the students’ self-certified incomes were consistent with the income
levels recorded in Job Corps’s automated system for 125 (90.6 percent) of the 138 student
files we selected for testing; and that the 125 students were in fact ineligible. 17 Table 1
shows the amounts that income exceeded established thresholds ranged from $55 to
$160,430. 18

14
   Education & Training Resources (3), Adams & Associates (2), Allutiiq (1) and Jackson-Pierce (1).

15
   See Exhibit 2 for cost calculations.

16
   See Appendix B “Sampling Plan for Admissions Follow-up Compliance” for additional information on our testing 

methodology.

17
   We judgmentally selected for testing eight OA service provider contracts based on our risk assessment using Job 

Corps’ 2011 report that identified income ineligible students, admission data for CY 2010, and any known program or 

contractor weaknesses.

18
   All service providers tested admitted income ineligible students among the 125 exceptions. The highest exception 

rates: Adams & Associates (49 or 39.2%), Education & Training Resources (23 or 18.4%), ResCare (16 or 12.8%) 

and MINACT (13 or 10.4%).


                                                                            Job Corps Must Strengthen Controls
                                                         7                        Report No. 26-11-005-03-370
                                                        U.S. Department of Labor – Office of Inspector General




Table 1: Results of follow up testing of income source documents


Income amount that exceeded limits                                                       Number of students
$160,430                                                                                                  1
$127,500                                                                                                  1
$112,930                                                                                                  1
$50,000 - $69,999                                                                                         5
$30,000 - $49,999                                                                                         1
$10,000 - $29,999                                                                                        28
$5,000 - $9,999                                                                                          30
$2,000 - $4,999                                                                                          32
$55 - $1,999                                                                                             26
Totals 	                                                                                               125*

*The 125 students included 18 ineligible students who were intentionally admitted at a Job Corps center. Similar to
the other 107, income amounts entered in OASIS for the 18 exceeded the established income thresholds for the
students.

The ineligible enrollments occurred because of significant and systemic control
weakness at both the contractor and Job Corps levels. Specific control weaknesses we
identified included:

         •	 OA service providers had not established effective policies, procedures, and
            oversight to ensure only eligible enrollments. Based on interviews with OA
            service providers and admissions counselors responsible for ineligible
            enrollments, we found that some admissions counselors either disregarded or
            were not aware of the appropriate income eligibility thresholds.

         •	 Job Corps did provide income eligibility criteria and guidance to OA service
            providers. However, the procedures, training, and oversight provided were not
            adequate to ensure compliance. For example, admissions counselors entered
            incomes exceeding the established thresholds into Job Corps’ automated
            system, yet Job Corps did not review the income data to identify the ineligible
            enrollments. Job Corps regional offices did not review documentation of
            self-certified incomes for eligibility during on-site assessments of OA service
            provider and center operations.

         •	 Job Corps did not conduct 100 percent income verification; rather potential
            students outside the “Sample” pool were allowed to self-certify their family
            income levels. Our testing showed that self-certification was not an effective
            means of determining student income eligibility.

         •	 Job Corps policy requiring admissions counselors to obtain income
            documentation from potential students with social security numbers ending in
            one of five 2-digit sequences was not an effective control. We selected 31
            students identified as “Sample” in Job Corps automated system and found

                                                                             Job Corps Must Strengthen Controls
                                                          8                        Report No. 26-11-005-03-370
                                                       U.S. Department of Labor – Office of Inspector General



             that the contents of the students’ admission files for 11 (35.5 percent)
             indicated that the required income documentation was not obtained.
             Moreover, the “Sample” process used by Job Corps would only determine
             whether five percent of the applying students were income eligible. Job Corps
             did not assess the overall reliability of the self-certification and sampling
             process because they did not request OA service providers forward sampling
             acceptance and rejection data to Job Corps for analysis.

We conducted additional testwork based on a risk assessment that identified 10 OA
service provider contracts with a high risk of enrolling ineligible students in CY 2010. 19
We performed this work to determine the extent of ineligible student enrollments by
specific high-risk OA service provider contracts. We statistically selected 30 student
enrollments from each service provider contract to test the extent of their ineligible
enrollments. 20 Three of the 10 showed zero ineligible enrollments. However, the
percentage of students with records indicating ineligibility for the seven remaining OA
service provider contracts tested ranged from 3.3 percent to 20 percent. Table 2 on the
following page summarizes our test results for the 10 high-risk OA service provider
contracts reviewed.




19
   We judgmentally selected 10 OA service provider contracts based on our risk assessment using Job Corps’ 2011
report that identified income ineligible students, admission data for CY 2010, and any known program or contractor
weaknesses.
20
   See Appendix B “Sampling Plan for High Risk Service Provider Compliance” for additional information on our
testing methodology.

                                                                            Job Corps Must Strengthen Controls
                                                         9                        Report No. 26-11-005-03-370
                                                     U.S. Department of Labor – Office of Inspector General




Table 2: Results of 10 high-risk OA service provider contracts 


                                                                                                   Projected
OA Service                        Students Ineligible Percent     CY 2010                          Ineligible
Provider     Contract               Tested Students Ineligible Enrollments                         Students
Adams &
Associates       1                         30               6        20.0%                 422                84
Education &
Training
Resources        2                         30               6        20.0%                 421                84
Adams &
Associates       3                         30               2         6.7%                 165                11
Adams &
Associates       4                         30               2         6.7%                 207                14
Adams &
Associates       5                         30               2         6.7%                 157                10
Odle
Management
Group            6                         30               2         6.7%                 338                23
ResCare Inc.     7                         30               1         3.3%                 889                30
Management
& Training
Corp             8                         30               0         0.0%                 280                  0
MINACT Inc.      9                         30               0         0.0%                 543                  0
ResCare Inc     10                         30               0         0.0%                 140                  0
             Totals                       300              21           7%               3,562                256

Questioned Costs for Ineligible Students

During the testing of our statistical and judgmental samples, we identified a total of 153
ineligible students. We determined that $2.27 million of DOL funds were spent to train
these students based on the number of days each student was enrolled and the related
center cost per day. The $2.27 million represents questioned costs because the
responsible OA service providers did not comply with Job Corps eligibility criteria and
the funds were spent on students who were not eligible for the Job Corps program. OA
service provider contracts allow for the recovery of unallowable costs in accordance
with Federal Acquisition Regulations. 21 Table 3 summarizes the number of ineligible
students identified during each test and the related questioned costs.




21
   Federal Acquisition Regulation Subpart 31.2 Contracts With Commercial Organizations and Subpart 52.216-7
Allowable Cost and Payment.

                                                                         Job Corps Must Strengthen Controls
                                                      10                       Report No. 26-11-005-03-370
                                           U.S. Department of Labor – Office of Inspector General



Table 3: Summary of ineligible students and related questioned costs


            Test                       Ineligible Students                Questioned Costs
OA Service provider
compliance test                                             7                        $166,980
10 high-risk OA service
provider compliance test                                  21                         $272,945
Follow-up compliance test                                125                       $1,834,378
Totals 	                                                 153                       $2,274,303


Job Corps is Strengthening its Student Eligibility Determination Process

Following the discovery of intentional admission of ineligible students at one of its
centers, Job Corps has taken a variety of steps to transform its student enrollment
process, including:

       •	 February 2011 - Job Corps modified the Center Information System to include
          the new Family Income Report.

       •	 March 2011 – Job Corps developed and released technical assistance tools
          to assist admissions counselors in determining low-income eligibility.

       •	 April 2011 - Job Corps modified its automated system (OASIS) to include an
          enhanced low-income eligibility verification process that validates
          income-related data against current poverty and low income guidelines. With
          these changes, the system will not allow the enrollment of an applicant who
          does not meet the low-income definition as stated in the PRH, including being
          homeless, a foster child, or receiving public assistance.

       •	 August 2011 – Job Corps provided regional staff access to OASIS to produce
          management reports with OA service provider and student enrollment data,
          including income eligibility statistics.

       •	 August and September 2011 – Job Corps provided in-person training to
          outreach and admissions contractors.

       •	 October 2011 - Job Corps released a revised policy, effective
          October 10, 2011, eliminating self-certification of family income and requiring
          100 percent of applicants to provide income documentation.




                                                             Job Corps Must Strengthen Controls
                                            11                     Report No. 26-11-005-03-370
                                           U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We made five recommendations to the Assistant Secretary for ETA and the National
Director, Office of Job Corps, related to improving Job Corps’ admission eligibility process:

      1. Job Corps should determine the eligibility of all active students with recorded
      family incomes above the established income thresholds and take appropriate
      action.

      2. Recover the estimated $2.27 million program funds spent on ineligible
      students from the OA service providers, as appropriate.

      3. Develop policies, procedures, training and oversight to ensure OA service
      providers comply with established eligibility criteria and other Job Corps policies
      for enrollment in the program.

      4. Direct OA service providers to develop policies, procedures and oversight to
      ensure compliance with established eligibility criteria and other Job Corps
      policies for enrollment in the program.

      5. Implement 100 percent applicant income verification procedures.

We appreciate the cooperation and courtesies that Job Corps, outreach and admissions
service provider, and Job Corps Center personnel extended to the Office of Inspector
General during this audit. OIG personnel who made major contributions to this report
are listed in Appendix E.




Elliott P. Lewis
Assistant Inspector General for Audit




                                                             Job Corps Must Strengthen Controls
                                            12                     Report No. 26-11-005-03-370
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                               Job Corps Must Strengthen Controls
              13                     Report No. 26-11-005-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                               Job Corps Must Strengthen Controls
              14                     Report No. 26-11-005-03-370
                                                         U.S. Department of Labor – Office of Inspector General



                                                                            Exhibit 1 

  Projected and estimated training costs for CY 2011 ineligible enrolled students 


To determine Annual Cost Per Budgeted Slot we performed this calculation:
                                                                                                           Annual Cost Per
 22                               23
  Job Corps Total                      Budgeted Slots for                                                  Budgeted Slot in
 Budget Authority         ÷(              CY 2011                X      Capacity Utilization         )=       CY 2011
  $1,694,577,795                           45,058                              97%                           $38,771.97


To determine Daily Cost Per Budgeted Slot we performed this calculation:

 Annual Cost Per
Budgeted Slot in CY                                                   Daily Cost Per Budgeted
      2011                 ÷            Calendar Days =                     Slot CY 2011
    $38,771.97                               365                              $106.22


To determine Cost to Train for Average Length Per Stay we performed this calculation:

  Daily Cost Per                  Average Length Per 

 Budgeted Slot CY                 Stay (9.1 months or                Cost to Train for Average 

       2011               X          276.79 days)                =       Length Per Stay                                 

     $106.22                             276.79                             $29,400.63


To determine projected cost to train March 2011 ineligible students we performed this calculation:

                                  Mid-point (10%) of                 Projected Cost to Train 472
 Cost to Train for               Projected Ineligible                  Students (March 2011
Average Length Per               Students Enrolled in                 only) for Average Length
       Stay               X          March 2011                  =              of Stay
    $29,400.63                           472                               $13,877,097.36


To determine estimated cost to train ineligible students for 12 months we performed this calculation:
                                                                                                            Estimated Cost
                                                                                                                to Train
 Cost to Train for                                                                                             Ineligible
                                 24
Average Length Per                     Estimated CY 2011                                                    Students for 12
       Stay               X(           Student Arrivals          X    Mid-point Exception Rate       )=         Months
    $29,400.63                              56,000                              10%                          $164,643,528




  22
     We converted FY data to CY by calculating the CY 2011 budget authority from data provided by Job Corps.

  23
     We converted Program Year (PY) data to CY by calculating the CY 2011 budgeted slots from data provided by Job 

  Corps.

  24
     The estimated number of CY 2011 student arrivals (56,000) is greater than the number of budgeted slots (45,058) 

  because the average length of stay is only 9.1 months, rather than 12 months. As a result, Job Corps can receive a 

  larger number of student arrivals than budgeted slots in a 12-month period.


                                                                              Job Corps Must Strengthen Controls
                                                            15                      Report No. 26-11-005-03-370
                 U.S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK





                                   Job Corps Must Strengthen Controls
                  16                     Report No. 26-11-005-03-370
                                                       U.S. Department of Labor – Office of Inspector General



                                                                                                       Exhibit 2
  Projected trainings costs for CY 2010 ineligible enrolled students

To determine Annual Cost Per Budgeted Slot for CY 2010 we performed this calculation:
 25
   Job Corps                                                                                              Annual Cost
                               26
 Total Budget                       Budgeted Slots                                                        Per Budgeted
  Authority          ÷(              for CY 2010         X         Capacity Utilization         )=       Slot in CY 2010
$1,696,071,500                          44,538                            97%                              $39,259.22

To determine Daily Cost Per Budgeted Slot for CY 2010 we performed this
calculation:
 Annual Cost
Per Budgeted                                                   Daily Cost Per
  Slot in CY                                                  Budgeted Slot CY
     2010           ÷         Calendar Days=                        2010
  $39,259.22                       365                            $107.56

To determine Cost to Train for Average Length Per Stay we performed this
calculation:
                               Average Length
Daily Cost Per                  Per Stay (9.1                  Cost to Train for
Budgeted Slot                 months or 276.79               Average Length Per
   CY 2010           X              days) =                          Stay
    $107.56                        276.79                         $29,771.53


To determine projected cost to train 614 ineligible students in CY 2010 we performed this calculation:
                              Mid-point (1.07%)
 Cost to Train                   of Projected                       Projected Cost to 

 for Average                 Ineligible Students                   Train 614 Students 

  Length Per                   Enrolled in CY                    for Average Length of 

     Stay            X               2010 =                               Stay
  $29,771.53                          614                            $18,279,719.42


To determine projected cost to train 1,527 ineligible students in CY 2010 we performed this calculation:
                             Upper limit (2.66%)
 Cost to Train                   of Projected                      Projected Cost to 

 for Average                 Ineligible Students                  Train 1,527 Students 

  Length Per                   Enrolled in CY                    for Average Length of 

     Stay            X               2010 =                                Stay
  $29,771.53                         1527                            $45,461,126.31




  25
    We converted FY data to CY by calculating the CY 2010 budget authority from data provided by Job Corps.
  26
    We converted PY data to CY by calculating the CY 2010 budgeted slots for students from data provided by Job
  Corps.

                                                                            Job Corps Must Strengthen Controls
                                                         17                       Report No. 26-11-005-03-370
                 U.S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK





                                   Job Corps Must Strengthen Controls
                  18                     Report No. 26-11-005-03-370
                                                       U.S. Department of Labor – Office of Inspector General



                                                                                                       Exhibit 3
     March 2011 Income Verification Exceptions

                    Annual
           Family   income                          Amount
          Income     based    Family    Income      income
Student                                                                              Testing Note
             in        on      Size    Threshold   exceeding
          OASIS     student                           limit
                      data


                                                               Supporting documentation provided was a June 2011 pay
Student                                 13,841                 stub with Year-to-Date (YTD) gross wages at $12,120.22
          13,000    24,240      2                   10,399
   1                                    LLSIL                  or $24,240 annualized ($12,120 x 2 semi-annual periods).
                                                               2011 South Metro LLSIL (MIAMI).

                                                               The student stated in handwritten letter that he had no
Student
            $0                  1                              documentation to provide; student provided no statement
   2
                                                               of support.



                                                               On June 29, center personnel stated student was asked
                                                               by center counselor if she was able to provide the
                                                               requested documents to which she replied that she could
                                                               and she agreed to provide them. Records Manager from
Student
          4,320                 0                              Job Corps center stated on July 27 that student was
   3
                                                               contacted on several occasions regarding OIG request of
                                                               June 14; student did not provide any documentation or
                                                               statement of support. Student separated from the program
                                                               on July 25.



                                        10,830                 Supporting documentation provided was Internal Revenue
Student                                  HHS                   Service (IRS) Form 1040EZ income tax return. The
            $0      15,300      1                    4,470
   4                                    Poverty                reported income of $15,300 exceeded the 2010 HHS and
                                         Limit                 West Metro LLSIL.



                                                               Supporting documentation provided was June 2011 pay
Student                                 15,036
            $0      49,509      1                   34,473     stub that listed $24,754.65 (annualized rate $24,754.65 x
   5                                    LLSIL
                                                               2 semi-annual periods of 6 months = 49,509.30).



Student                                                        The student stated that she had no documentation to
            $0                  1
   6                                                           provide; student provided no statement of support.



                                        14,710                 Supporting documentation provided was May
Student                                  HHS                   2011paystub that listed $14,469 in YTD Gross wages.
          2,345     43,733      2                   29,023
   7                                    Poverty                Hourly rate of $22.4272 x 75 average hours per pay
                                         Limit                 period x 26 pay periods = $43,733.




                                                                           Job Corps Must Strengthen Controls
                                                        19                       Report No. 26-11-005-03-370
                                                       U.S. Department of Labor – Office of Inspector General


                    Annual
           Family   income                          Amount
          Income     based    Family    Income      income
Student                                                                              Testing Note
             in        on      Size    Threshold   exceeding
          OASIS     student                           limit
                      data
                                                               Student responded in handwritten letter they were not
Student                                                        prepared to provide any documents and stated they have
            $0                  1
   8                                                           nothing to provide. Student did not provide any statement
                                                               of support.

                                                               Supporting documentation provided was IRS Form 1040A
Student                                 22,558
          19,000    23,352      4                    794       (2010 income tax return). (2010 St Louis LLSIL and HHS
   9                                    LLSIL
                                                               Limits)

Student                                 15,661                 Supporting documentation provided was 2010 IRS W2
            0       41,076      2                   25,415
  10                                    LLSIL                  Wage & Tax Statement listing $41,076 income.


                                                               Student's mother provided a statement of support
                                                               indicating that she was the primary provider for the
                                                               student. She also provided her 2010 Form W2 Wage &
Student                                 23,909
          17,500    30,909      4                    7,000     Tax Statement listing $30,522 and May 2011 pay stub
  11                                    LLSIL
                                                               listing $14,180 YTD Gross Wages. Pay stub on an
                                                               annualized rate = 30,909 ($14.86 x 80 hours per pay
                                                               period x 26 pay periods)

                                                               Supporting documentation was 2010 IRS Form 1040
Student                                 23,128
           900      88,202      3                   65,074     Income Tax Return. (2010 LLSIL Seattle-Tacoma-
  12                                    LLSIL
                                                               Bremerton, WA)




                                                                           Job Corps Must Strengthen Controls
                                                        20                       Report No. 26-11-005-03-370
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                 Job Corps Must Strengthen Controls
                21                     Report No. 26-11-005-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                               Job Corps Must Strengthen Controls
              22                     Report No. 26-11-005-03-370
                                                      U.S. Department of Labor – Office of Inspector General



                                                                                                 Appendix A
Background

Secretary Solis requested a nationwide audit of Job Corps’ outreach and admissions
process after ETA found intentional admission of ineligible students at the Gadsden Job
Corps Center, operated in Alabama by a private contractor. An initial investigation by
the center contractor indicated as many as 112 of 477 (or 23.4 percent) past and
currently enrolled students exceeded the maximum family income level allowed for
participation in the Job Corps program. The Secretary requested the audit to ensure the
appropriate use of Federal taxpayer money and the fair enrollment opportunity for
eligible students into Job Corps, as well as to improve ETA’s policies and procedures to
prevent the enrollment of ineligible students.

In February 2011, ETA provided us with the results of two reviews it conducted of
student eligibility. For the first review, ETA reported that nationally 2.9 percent (5,426) of
the 180,904 students enrolled between calendar years (CY) 2008 and 2010 were
income ineligible, and that the ineligibility rate improved to 2.3 percent in CY 2010. 27 For
the second review, ETA further analyzed active student enrollments and reported that
follow-up with centers and OA contractors determined nearly all entries for ineligible
incomes were typographical errors; suggesting that OA contractors should improve
quality control procedures for data entry.

Job Corps is administered by the U.S. Department of Labor, Office of Job Corps (Job
Corps), under the leadership of the National Director, supported by the National Office
of Job Corps and a field network of six regional offices. Job Corps' mission is to attract
eligible young people, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education.

Job Corps offers a comprehensive array of career development services through a
nationwide network of 124 campuses to at-risk young women and men, ages 16 to 24,
to prepare them for successful careers. Job Corps centers are operated for DOL by
private companies through competitive contracting processes, and by other Federal
agencies through interagency agreements. Job Corps is a free education and training
program with a $1.7 billion budget (fiscal year 2011). The Office of Job Corps is an
office within ETA.

Contractors, on behalf of DOL, operate Job Corps’ outreach and admissions program.
These contractors, or service providers, ensure the Job Corps program maintains a
positive public image, strong community and employer partnerships, a pool of eligible
and committed applicants, and full utilization of Job Corps training opportunities. OA
service providers assess, verify, and document applicant eligibility for the Job Corps
program and enroll eligible individuals who can benefit from the Job Corps program.


27
   The family income thresholds are based on Poverty Guideline Limits established by the Department of Health and
Human Services (HHS) and 70% of the Lower Living Standard Income Levels (LLSIL) established by the Department
of Labor. Job Corps eligibility thresholds are set at the higher of the Poverty Guideline Limits and the LLSIL.

                                                                          Job Corps Must Strengthen Controls
                                                       23                       Report No. 26-11-005-03-370
                 U.S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK





                                   Job Corps Must Strengthen Controls
                  24                     Report No. 26-11-005-03-370
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix B
Objective, Scope, Methodology and Criteria

Objective

Our audit objective was to answer the following question:

     Did Job Corps ensure outreach and admissions service providers enroll only eligible
     students?

Scope

Our scope encompassed the 86 contractors that provided OA services to the 57,392
students who enrolled at Job Corps centers in CY 2010, as well as the 5,504 students
who enrolled in March 2011.

This report reflects the audit work conducted at 11 Job Corps centers, all six Job Corps
regional offices (Atlanta, Boston, Chicago, Dallas, Philadelphia and San Francisco), and
Job Corps’ national office in Washington, D.C.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objective, we obtained an understanding of applicable laws,
regulations, and Job Corps policies and procedures. At the Job Corps national office
and Job Corps regional offices, we performed walkthroughs of national and regional
offices processes, interviewed officials, reviewed regional office center assessments,
and identified and evaluated internal controls over student eligibility oversight. At the 11
Job Corps centers we visited (Exeter, Gadsden, Guthrie, IndyPendence, Inland Empire,
Los Angeles, Miami, Pine Ridge, Shriver, St. Louis and Turner), we performed
walkthroughs of center admission processes, and identified and evaluated internal
controls over student eligibility oversight and reporting, as applicable. Our consideration
of internal controls would not necessarily disclose all matters that might be significant
deficiencies. Because of inherent limitations in internal controls, misstatements or
noncompliance may nevertheless occur and not be detected.

We selected the 11 Job Corps centers based on the OA service provider that admitted
students into the Job Corps center. We considered the number of students admitted in
CY 2010 and any known program weaknesses in our selection process. The center



                                                              Job Corps Must Strengthen Controls
                                             25                     Report No. 26-11-005-03-370
                                           U.S. Department of Labor – Office of Inspector General



where the student enrolled maintained the official OA admission file and retained the file
following a student’s separation from the program.

We assessed the reliability of related data for the applicable audit period and
determined that the data was sufficiently reliable to accomplish our audit objective.

OA Service Providers

Contractors, or service providers, provided Job Corps’ outreach and admission
services. They were responsible for ensuring the Job Corps program maintained a pool
of eligible and committed applicants, and full utilization of Job Corps’ training capacity.
There were 29 service providers operating under 86 separate OA contracts. The
number of contracts managed by a single OA service provider ranged from 1 to 10
contracts. There were four expired OA contracts and three voluntary OA contracts
among the 86 separate contracts. We included expired contracts in our scope because
the contractor provided outreach and admission service to students who enrolled at a
Job Corps center during CY 2010.

We conducted four tests to accomplish our audit objective. For our testing, we used
both statistical and judgmental sampling to assess the level of ineligible students that
enrolled in Job Corps and the causes for improper enrollments.

Sampling Plan for Income Self-Certification Process

We tested for compliance with Job Corps’ income eligibility standards and the
effectiveness of Job Corps’ income self-certification process. We used a statistical
random sampling methodology with testing results projected to the universe.

We selected a statistical random sample of 189 students from a universe of 5,229
students for testing. Job Corps provided OIG with a list of 5,522 students admitted
during March 2011. We eliminated 18 duplicate student names with the same
respective identification number and 275 students that Job Corps previously
documented their income as part of the admissions process (5,522 -18 - 275 = 5,229).

We sent letters to the students’ mailing addresses as provided by Job Corps and to the
Job Corps centers where they enrolled. We requested students to provide income
eligibility documentation Job Corps accepted for students, and we requested center
directors to assist students in meeting our request. We evaluated the documentation
received to determine if the students met the low family income thresholds for Job
Corps eligibility by using the higher of the HHS Poverty Guideline threshold or 70
percent of the LLSIL threshold. We considered and accepted other documentation that
qualified a student for Job Corps regardless of low-income eligibility such as, receipt of
public assistance, being in foster care or a ward of the court, being homeless, or having
a disability that presented a barrier to obtaining employment.




                                                             Job Corps Must Strengthen Controls
                                            26                     Report No. 26-11-005-03-370
                                           U.S. Department of Labor – Office of Inspector General



We received 133 (70.3 percent) responses from the letters sent. Thirteen (9.77 percent)
of these responses stated the student already separated from Job Corps which resulted
in 120 responses for testing. To maintain the statistical validity of our work, we reduced
the student universe by 511 (9.77 percent) students from 5,229 to 4,718 to reflect
students that already separated from the program. Using a 95 percent confidence level,
we projected the testing results against the adjusted student universe of 4,718.

Sampling Plan for CY 2010 Student Admissions Compliance

We tested for compliance with Job Corps’ eligibility standards listed in the PRH, which
included age (16-24), legal U.S. residency, ability to benefit from the Job Corps program
by needing additional education to secure and hold employment, selective service
registration for males and low family income. We determined an applicant’s low-income
status by self-certification of family income below the higher of the HHS Poverty
Guideline threshold or 70% of LLSIL threshold, receipt of public assistance, being in
foster care or a ward of the court, being homeless, or having a disability that presented
a barrier to obtaining employment.

Testing Step 1: We statistically selected 28 service providers from one of four stratums.
Job Corps provided a list of 86 OA service providers (active, expired and voluntary
contractors). We stratified the OA service providers based on our risk assessment and
placed each into one of four strata. In our risk assessment, we considered the number
of student admissions in the calendar year for each contract, the contract status (active,
expired or voluntary), and we considered any known program weaknesses.

Testing Step 2: We randomly selected seven students from each of the 28 OA service
providers, giving us 196 randomly selected students from among 18,327 students. We
were then able to project our results with 95 percent confidence to our universe of
57,392 students. Job Corps provided us with a database of 57,950 admitted students
who arrived for enrollment at a Job Corps during CY 2010. We eliminated 558 duplicate
and triplicate student names with the same respective identification number. As a result,
we identified a student universe of 57,392 students (57,950 – 558 = 57,392).

Sampling Plan for Admissions Follow-up Compliance

We tested for compliance with Job Corps’ eligibility standards listed in the PRH.
Testing Step 1 – We judgmentally selected eight OA service provider contracts based
on our risk assessment using Job Corps’ 2011 income ineligibility report, admission
data for CY 2010, and other known program weaknesses.

Testing Step 2 – We judgmentally selected 138 of 372 students from the eight OA
service providers using student identification numbers that accompanied Job Corps’
income ineligibility report. We selected students for representation across CY 2010 and
representation when the OA contractor was not clearly identified, as well as other
factors. We did not project our test results.



                                                             Job Corps Must Strengthen Controls
                                            27                     Report No. 26-11-005-03-370
                                                   U.S. Department of Labor – Office of Inspector General



Sampling Plan for High Risk Service Provider Compliance

We tested for compliance with Job Corps’ eligibility standards listed in the PRH.
Testing Step 1 – We judgmentally selected 10 OA service provider contracts based on
risk assessment using Job Corps’ 2011 income ineligibility report, admission data for
CY 2010, and other known program weaknesses.

Testing Step 2 – We randomly selected 30 students from each of the 10 OA service
provider contracts giving us 300 randomly selected students from among the 3,562
students. We did not project our test results.

Calculation of Questioned Costs

During the testing of our statistical and judgmental samples, we identified ineligible
students and the amount of DOL funds spent to train these students (see Table 3). The
funds spent to train these students represent questioned costs because the responsible
service providers did not comply with Job Corps’ eligibility criteria, and the funds were
spent on actual students not eligible for the Job Corps program. We used enrollment
and cost information provided by Job Corps to calculate questioned costs.

To determine questioned costs we:

     •	 Calculated number of days a student was enrolled in Job Corps from day of
        arrival to day of separation.
     •	 Obtained from Job Corps the average budgeted-cost-per-day-per-student for the
        Job Corps center where the student was enrolled.
     •	 Multiplied average-budgeted-cost-per-day-per-student figure by the number of
        days enrolled for each ineligible student.
     •	 Average-budgeted-cost-per-student x Number Days Enrolled = Questioned Cost

Funds Put To Better Use

To determine funds put to better use we calculated:

     •	 Annual Cost of a Budgeted Student Slot by using the FY 2010 Job Corps total
        budget authority 28 divided by the budgeted student slots and multiplied by the
        capacity utilization rate 29 .
     •	 Daily Cost Per Budgeted Student Slot by dividing the Annual Cost of a Budgeted
        Student Slot by 365 calendar days.
     •	 Average Length Per Stay Cost by multiplying the Daily Cost Per Budgeted
        Student Slot by 9.1 months (Job Corps determined average length per stay).

28
   Total budget authority included operations, construction, and administration from the Congressional 

Budget Justifications.

29
   The Capacity Utilization Rate is from a 5 year average of actual on-board strength (OBS) divided by the 

5-year average of budgeted OBS.


                                                                      Job Corps Must Strengthen Controls
                                                    28                      Report No. 26-11-005-03-370
                                       U.S. Department of Labor – Office of Inspector General



Criteria

Economic Opportunity Act of 1964
Government Accountability Office Government Auditing Standards (July 2007Revision;
     GAO-07-731G)
Government Accountability Office Standards for Internal Control in the Federal
     Government (November 1999; GAO/AIMD-00-21-3.1)
Office of Job Corps Policy and Requirements Handbook
Office of Job Corps Program Assessment Guide
U.S. Department of Health and Human Services Poverty Guidelines
Workforce Investment Act of 1998




                                                         Job Corps Must Strengthen Controls
                                        29                     Report No. 26-11-005-03-370
                 U.S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK





                                   Job Corps Must Strengthen Controls
                  30                     Report No. 26-11-005-03-370
                                       U.S. Department of Labor – Office of Inspector General



                                                                              Appendix C
Acronyms and Abbreviations


CY            Calendar Year

DOL           U.S. Department of Labor

ETA           Employment and Training Administration

Form 652      Primary Applicant ETA Form 652

HHS           U.S. Department of Health and Human Services

Job Corps     Office of Job Corps

LLSIL         Lower Living Standard Income Level

OA            Outreach & Admissions

OASIS         Outreach & Admissions Student Information System

OBS           On-board Strength

OIG           Office of Inspector General

PRH           Policy and Requirements Handbook

PY            Program Year

SSA           Social Security Administration

WIA           Workforce Investment Act




                                                         Job Corps Must Strengthen Controls
                                         31                    Report No. 26-11-005-03-370
                 U.S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK





                                   Job Corps Must Strengthen Controls
                  32                     Report No. 26-11-005-03-370
                                                          U.S. Department of Labor – Office of Inspector General



                                                                                                             Appendix D
ETA’s Response to Draft Report


     U.S. Department of Labor                     Assistant Secretary tor
                                                  Employment and Training
                                                  Washington . D.C. 20210



            SEP 2 9 2011
         MEMORANDUM FOR ELLIOT P. LEWIS
                        Assistant Inspector General

         FROM:                     JANE OATES
                                   Assistant Secretary for
                                                             tyu         it'. L
                                                                         v """"J
                                   Employment and Trainin

         SUBJECT:                  OIG Audit of Job Corps Must Strengthen Controls to Ensure Low­
                                   Income Eligibility
                                   Draft Report #26- 11-005-03-370

         This memorandum responds to the subject draft audit report, dated September 23, 2011, Job
         Corps Must Strengthen Controls to Ensure Low-Income Eligibility. We appreciate the
         opportunity to provide input to this draft audit report as well as to the recent discussion draft
         report and "statement of facts ." The Employment and Training Administration (ETA), which
         manages and administers the Office of Job Corps (OJe), appreciates the Office ofInspeclor
         General's (OIG' s) efforts to identify areas in which the program's eligibility detennination
         policies and procedures can be improved.

         ETA is conunilted to ensuring that Job Corps is available to students who meet legislatively
         mandated eligibility criteria. This includes outreach and admissions contractors verifying the
         eligibility of 100010 of applicants to validate that the program is serving its target population, the
         nation's neediest youth. We take great pride in the work we do on behalf of youth and adults
         across the nation, and our efforts fully support the Department's priorities 10 achieve ''Good Jobs
         for Everyone." For over four decades, Job Corps has made a difference in young people's lives
         by helping them gain academic and career technical training credentials, complemented by
         placement in employment, education, the mi litary, and apprenticeship, with defined career paths
         that will lead them to economic self-sufficiency.

         First, ETA takes responsibility for eligibility detenninations that were determined to be improper.
         As the OrG outlines in the report, ETA has swiftly taken steps over the last year to implement
         100% verification of income eligibility by contracted outreach and admissions providers and
         strengthen data collection and monitoring systems for federal oversight. ETA has also offered
         multiple online and in-person training sessions for outreach and admissions staff, and developed
         technical assistance tools. ETA is pleased that many of the OIG's recommendations have
         already been implemented or will be implemented in the faJl of2011.

         Funds Spent on Ineligible Students
         ETA disagrees with the methodology and outcomes of the OIG's calculation of funds spent on
         ineligible students. To begin, Exhibits 1 and 2 cite inaccurate budget authority figures . Working
         with the ETA Budget Office. Job Corps provided the OIG with the actual SF-1320MB
         apportionment supporting documentation. In addition, the OIG includes Administration costs in




                                                                                  Job Corps Must Strengthen Controls
                                                           33                           Report No. 26-11-005-03-370
                                                U.S. Department of Labor – Office of Inspector General




its calculation. This methodology sets Job Corps apart from all other ETA programs, which do
not include their administration funding in participant cost calculations. Administration funding
impacts only the federal workforce that oversees and monitors the program, and does not affect
the direct delivery of services to students.

Further, as the OlG acknowledged in the report, the estimate 0[$165 million assumes that the
ineligibility rate from the sample taken in March 2011 will remain constant through calendar
year 2011 . This assumption does not account for the following steps taken by ETA:

•   February 2011 ~ Job Corps modified the Center Information System to include an Income
    Eligibility Data Integrity Report.

•   March 201 1 - Job Corps developed and released technical assistance tools to assist
    contracted admissions counselors in detennining low~income eligibility.

•   April 2011 ~ Job Corps modified its automated system (OASIS) to include an enhanced low­
    income eligibility verification process that validates income-related data against current
    poverty and low-income guidelines. With these changes, the system will not allow the
    enrollment of an applicant who does not meet the low-income definition as slated in the PRH,
    including being homeless, a foster child, or receiving public assistance.

•   August 2011 - Job Corps provided regional staff access to OASIS to produce management
    reports with outreach and admissions service provider and student enrollment data, including
    income eligibility statistics.

•   August and Seplember 2011 - Job Corps provided training sessions to outreach and
    admissions contractors.

•   October 2011 - Job Corps has revised its policy to eliminate self-certification of family
    income and requirelOO percent of applicants to provide income documentation.

To summarize, the SI65 million is a hypothetical projection, which, given the enhanced policies
and procedures that have been implemented, will not occur. The OIG's inclusion of this figure
in the draft report greatly overestimates the amount of potential funds spent on ineligible students.

Recommendations
ETA is committed to ensuring 100010 eligibility of applicants with federal staff providing
continued oversight and training.

Our responses to the draft report's recommendations follow:

OIG R~commendatlon 1. Job Corps should determine the eligibility of all active students with
recordedfamily incomes over the established income thresholds and take appropriate action.




                                                                                                   2




                                                                       Job Corps Must Strengthen Controls
                                                 34                          Report No. 26-11-005-03-370
                                               U.S. Department of Labor – Office of Inspector General




Response; Management accepts this recommendation. ETA, in coordination with the Office of
the Solicitor, ETA Office of Contracts Management, and Office of the Sec:retary, will review the
eligibility of affected students and take the appropriate action.

Recommendlltion 1. Recover the estimaled $2.27 million program funds spent on ineligible
students from the OA service providers. as appropriate.

Response: Management accepts this recommendation. Job Corps, in coordination w ith the ETA
Office of Contracts Management, will evaluate the questionable income thresholds, and seek
documentation from the applicable outreach and admissions contractors. In the event that a
contractor cannot support the questioned costs, the costs will be disallowed in accordance with
the Federal Acquisition Regulation (FAR) and contract requirements. In the instances where a
contractor has already been paid such funds, recoupment through set-offwill also be pursued, as
appropriate. Appropriate infonnation to close this recommendation will be forwarded to the orO.

We consider this recommendation resolved.

Recommendation 3. Develop poliCies, procedures, training and oversight to ensure OA service
providers comply with established eligibility criteria and other Job Corps policies for enrollment
in the program.

Response: Management accepts this recommendation. Job Corps has delivered extensive staff
training on low-income eligibility requirements and revised eligibility policies and practices, and
developed technical assistance tools for outreach and admissions contractors. Job Corps will
continue to develop and del iver training and technical assistance as appropriate.

Based on the current policies and procedures, during the I' Lquaner ofFY 2012, the National
Director of lob Corps will issue a memorandwn to Regional Offices to reiterate policies and
procedures regarding oversight respons ibilities, to include audit sampling during compliance
assessments.

The National Director of Job Corps will also issue a memorandum through the Regional Offices
to direct outreach and admissions contractors to strengthen policies and procedures, including
quality assurance, to ensure compliance with Job Corps' policies for detennining and validating
income eligibility.

We consider this recommendation resolved.

Recommendation 4. Direct OA service providers to develop poliCies, procedures and oversight
to ensure compliance with established eligibility criteria and other Job Corps policies for
enrollment in the program.

Response: Management accepts this recommendation. Please refer to the response in
Recommendation NO.3.

We consider this recommendation resolved.



                                                                                                  3




                                                                      Job Corps Must Strengthen Controls
                                                 35                         Report No. 26-11-005-03-370
                                              U.S. Department of Labor – Office of Inspector General




RecoMMendation 5. Implement /00 percent applicant income verification procedures.

Rnponse: Management accepts this recommendation. Job Corps' policy to conduct 100
percent income verification is effective on October to, 201 L

We consider this recommendation reso lved.

Based on the foregoing responses, we anticipate that the audit report's recommendations will be
resolved and can be closed upon completion of the corrective actions.

cc:    Roberta Gassman. ETA
       Edna Primrose, Job Corps




                                                                                                  4




                                                                    Job Corps Must Strengthen Controls
                                               36                         Report No. 26-11-005-03-370
                                        U.S. Department of Labor – Office of Inspector General



                                                                               Appendix E
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director); Stephen Lawrence
(Acting Audit Manager); Arijit Bandyopadhyay, Steven Johnson, Adams Kondeh, and
Barry Weiss (Auditors); Steven Witherspoon (OIG Report Reviewer); and Ajit Buttar
(OIG Statistician).




                                                          Job Corps Must Strengthen Controls
                                         37                     Report No. 26-11-005-03-370
                 U.S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK 





                                   Job Corps Must Strengthen Controls
                  38                     Report No. 26-11-005-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
